                                   February 25, 2003

                                   ANITA J. BIZZOTTO
                                   SENIOR VICE PRESIDENT, CHIEF MARKETING
                                    OFFICER

                                   CHARLES E. BRAVO
                                   SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND
                                    ADDRESS QUALITY

                                   HENRY A. PANKEY,
                                   VICE PRESIDENT, DELIVERY AND RETAIL

                                   SUBJECT:          Management Advisory –
                                                     Commercial Internet Companies Offering
                                                     Change-of-Address Services
                                                     (Report Number OE-MA-03-003)

                                   This report presents the results of our review of options
                                   provided by the Postal Service concerning commercial
                                   Internet companies offering change-of-address services
                                   (Project Number 02BG010EM001). This review is in
                                   response to the Postal Service’s request for the Office of
                                   Inspector General (OIG) to focus attention on this issue as
                                   part of our audit of the Postal Service’s MoversGuide.com
                                   initiative.1 The objective of our review was to assess the
                                   three options provided by the Postal Service concerning
                                   change-of-address services offered by commercial Internet
                                   companies.

    Results in Brief               We reviewed the options under consideration by the Postal
                                   Service. Option 1, leveraging commercial change-of-
                                   address services, offers the Postal Service numerous
                                   potential advantages, to include avoiding costs, increasing
                                   revenue, and improving customer service with potential
                                   drawbacks in the areas of privacy, security and risks to the
1
 MoversGuide.com is an Internet-based service that allows consumers to change their addresses with the Postal
Service electronically or to print and submit a hardcopy change-of-address order to the Postal Service, and to access
a variety of move-related products and services.




                                              Restricted Information
Commercial Internet Companies                                                               OE-MA-03-003
 Offering Change-of-Address Services


                                   Postal Service’s reputation. Option 2, not accepting
                                   change-of-address information from the commercial
                                   companies, would eliminate receiving potentially incorrect
                                   address information submitted by the companies. Option 3,
                                   informing commercial companies they are violating Postal
                                   Service policy, is not viable because the companies are
                                   operating within Postal Service policy.

                                   Although ultimately a Postal Service business decision, we
                                   believe it would be more prudent for the Postal Service to
                                   explore Option 1. This option offers the Postal Service
                                   numerous potential advantages with few drawbacks. This
                                   option also supports Transformation Plan strategies to
                                   improve the overall accuracy of address information, reduce
                                   undeliverable-as-addressed mail,2 and seek opportunities to
                                   create new services with minimal investment. In addition,
                                   while the Postal Service’s Mover’s Source3 alliance is in
                                   effect, the terms of the alliance may influence how the
                                   Postal Service could pursue this option.

 Background                        During our review of the MoversGuide.com initiative, we
                                   learned of commercial Internet companies offering move-
                                   related and change-of-address services to consumers, and
                                   submitting change-of-address information to the Postal
                                   Service on behalf of the consumers. The two companies
                                   we reviewed used the following process: A consumer
                                   submits their change-of-address information electronically to
                                   the commercial companies via the companies’ Internet
                                   websites. The companies print and submit the hard copy
                                   change-of-address orders to the Postal Service, which
                                   processes the orders following its standard change-of-
                                   address procedures. (See Figure 1). Mail is subsequently
                                   forwarded to the consumer’s new address.




2
  Mail the Postal Service cannot deliver as addressed and must forward to the addressee, return to the sender, or
send to a mail recovery center. The Postal Service reports that it costs $1.5 billion annually to process this mail.
3
  Mover’s Source is a family of moving programs established in an alliance between the Postal Service and Imagitas,
Incorporated, to meet customers’ moving needs. The alliance includes MoversGuide.com.



                                                         2
                                              Restricted Information
Commercial Internet Companies                                                                OE-MA-03-003
 Offering Change-of-Address Services




                                        Internet
                                                                                        Commercial
                                                                                         Company




                   Customer

                                                                            Hardcopy
                                Post                                        Change of
                               Office                                        Address
                                                                              Order




                                 Figure 1. Commercial Change-of-Address Process


                                   The OIG learned the Postal Service was aware of these
                                   companies, and that some companies had expressed an
                                   interest in partnering with the Postal Service to provide
                                   change-of-address orders electronically. The Postal
                                   Service had entertained ideas on how to address the
                                   companies.4 During our entrance conference in July 2002,
                                   we were informed the deputy postmaster general requested
                                   the Address Management office evaluate how to address
                                   these commercial companies. The manager, Address
                                   Management, identified three options for consideration. The
                                   options were for the Postal Service to:

                                         1. Leverage the change-of-address services offered by
                                            commercial companies.

                                         2. Not accept address changes submitted through
                                            commercial companies.

                                         3. Inform the commercial companies they are violating
                                            Postal Service policy.




4
  In February 2001, the Postal Service drafted a proposal to certify Internet change-of-address agents. In addition,
the Postal Service sponsored an Internet Change of Address (ICOA) Strategy study, June 5, 2001, to analyze the
economic benefits of increasing customer reach through Internet change-of-address services and the study included
“next steps” for the Postal Service to consider.



                                                              3
                                                   Restricted Information
Commercial Internet Companies                                                               OE-MA-03-003
 Offering Change-of-Address Services



                                    The manager asked that during our audit of the
                                    MoversGuide.com initiative, we focus attention on the
                                    commercial companies offering change-of-address services
                                    via the Internet. In response, we assessed the viability of
                                    the three options being considered by the Postal Service.

    Objective, Scope, and           Our objective was to review the three options being
    Methodology                     considered by the Postal Service concerning
                                    change-of-address services offered by commercial Internet
                                    companies. To accomplish this objective, we interviewed
                                    headquarters officials, program staff, and representatives of
                                    two commercial Internet companies who offer
                                    change-of-address services. We also reviewed Postal
                                    Service regulations and other pertinent documentation.

                                    In assessing these options, we considered how to best
                                    protect Postal Service customers’ personal information and
                                    the Postal Service’s reputation, and potential improvements
                                    on Postal Service operations and revenues. We did not
                                    assess the potential impact of these options on commercial
                                    companies. In addition, we considered and included in our
                                    assessment information from a study the Postal Service
                                    sponsored in 2001 regarding an Internet change-of-address
                                    strategy.5 However, for the purposes of this report, we did
                                    not assess the accuracy of the information contained in the
                                    study, but rather considered the reasonableness of the
                                    information presented.

                                    We conducted this review from June 2002 through
                                    February 2003 in accordance with the President’s Council
                                    on Integrity and Efficiency, Quality Standards for
                                    Inspections. We discussed our conclusions and
                                    observations with appropriate management officials and
                                    included their comments, where appropriate.

    Prior Audit Coverage            The OIG published a report, Review of the Revised Rules
                                    Governing Commercial Mail Receiving Agencies (Report
                                    Number DE-AR-01-002, dated April 9, 2001).




5
    The Internet Change-of-Address (ICOA) Strategy, dated June 5, 2001, (Booz-Allen Hamilton).



                                                          4
                                               Restricted Information
Commercial Internet Companies                                                               OE-MA-03-003
 Offering Change-of-Address Services



                                   In this report, the OIG concluded the Postal Service did not
                                   show how revised rules governing commercial mail
                                   receiving agencies would curb fraud. In addition, the Postal
                                   Service did not assess the impact of the proposed rules on
                                   commercial agencies and consumers, or consider
                                   alternatives to revising the rules. The report made
                                   three recommendations addressing these rules.

    Advantages and                 Option 1 – Leverage the Change-of-Address Services
    Drawbacks to                   Offered by Commercial Companies.6
    Options Addressing
    Commercial Internet            We concluded there are several potential advantages and
    Companies Offering             drawbacks if the Postal Service leverages the services
    Change-of-Address              offered by the commercial companies. The potential
    Services                       advantages include:

                                        •   Creating revenue opportunities for the Postal
                                            Service. One of the goals of the Postal Service
                                            through its Mover’s Source program was to target
                                            customers who move by implementing revenue
                                            sharing business development deals with online
                                            providers. Affiliating with other commercial Internet
                                            companies that provide change-of-address and other
                                            move-related services could be a potential revenue
                                            opportunity.

                                        •   Improving Postal Service operations through
                                            improved quality control measures placed on the
                                            commercial companies. The Postal Service most
                                            likely could not prevent commercial companies from
                                            submitting change-of-address information since the
                                            companies we reviewed are operating within Postal
                                            Service policy7 (see Option 3). However, by
                                            affiliating with the companies and receiving the
                                            address change information electronically, the Postal
                                            Service could require quality control measures, which
                                            could improve the accuracy and validity of change-of-
                                            address information it receives.8 The improved


6
  The opportunity to obtain the greatest benefits from leveraging the companies’ services would involve accepting the
change-of-address orders electronically with address quality controls similar to the ones in place for
MoversGuide.com. Therefore, these controls are the key elements on which we based our assessment of this option.
7
  Postal Operations Manual, Issue 9, July 2002, Section 682.
8
  The ability to provide information to the Postal Service electronically would have to be added.



                                                         5
                                              Restricted Information
Commercial Internet Companies                                                                   OE-MA-03-003
 Offering Change-of-Address Services



                                              information could help reduce undeliverable-as-
                                              addressed mail.

                                         •    Improving Postal Service operations and providing
                                              cost avoidance opportunities:

                                                  – The commercial companies we reviewed offer
                                                    Internet Mailer Notification services, which
                                                    allow consumers to change their addresses
                                                    directly with private entities.9 This process
                                                    allows the private entities to change customer
                                                    addresses before mailing correspondence,
                                                    thereby reducing mail the Postal Service must
                                                    forward. The Postal Service acknowledges
                                                    Internet Mailer Notification services benefit its
                                                    operations because it reduces undeliverable-
                                                    as-addressed mail. The Internet Change-of-
                                                    Address (ICOA) Strategy study indicated the
                                                    two companies10 offered Internet Mailer
                                                    Notification services with over 47,000 and
                                                    65,000 private entities respectively.11 The
                                                    Postal Service informed us it is in the process
                                                    of developing a similar feature for
                                                    MoversGuide.com.12 However, very few
                                                    private entities have expressed an interest in
                                                    participating because of modifications they
                                                    would have to make in their systems to accept
                                                    the address change requests. By affiliating
                                                    with commercial companies that offer Internet
                                                    Mailer Notification services, the Postal Service
                                                    could direct its customers from
                                                    MoversGuide.com to these services. This
                                                    would give Postal Service customers access
                                                    to a greater number of private entities with
                                                    which they could change their addresses.

                                                  –    The commercial company websites provide
                                                       the Postal Service the opportunity for
                                                       increased access to potential customers. If
                                                       consumers, who might not otherwise visit the
                                                       MoversGuide.com website, access the
9
  The private entities include banks, credit card companies, newspapers, etcetera.
10
   One of the companies acquired the other in September 2002.
11
   We did not assess the address change procedures for Internet Mailer Notification.
12
   The Postal Service refers to its Internet Mailer Notification feature as super change-of-address.



                                                           6
                                                Restricted Information
Commercial Internet Companies                                               OE-MA-03-003
 Offering Change-of-Address Services


                                              commercial company websites for other move-
                                              related services, they may also take
                                              advantage of the electronic change-of-address
                                              services. This supports the Postal Service
                                              Mover’s Source objective to encourage
                                              customers to submit address changes online.

                                  •    Providing enhanced customer satisfaction. In
                                       comparing the services currently offered by
                                       MoversGuide.com with those offered by one of the
                                       companies we reviewed, we noted the commercial
                                       company offered a more extensive assortment of
                                       businesses that provide move-related services. The
                                       company also offers additional move-related services
                                       such as finding movers, storage facilities, real estate
                                       agents, home prices, and roommates; obtaining
                                       mortgage and insurance services; and locating
                                       childcare, repair and home maintenance services.
                                       Therefore, by affiliating itself with these commercial
                                       companies, the Postal Service could support its goals
                                       to provide customers with a broader array of move-
                                       related products and services. Ultimately, this could
                                       help the Postal Service with one of its primary
                                       Mover’s Source program objectives to improve
                                       customer satisfaction, potentially improving its brand
                                       image.

                                  •    Supporting Transformation Plan strategies.
                                       Leveraging commercial change-of-address services
                                       could support the Postal Service Transformation Plan
                                       strategies to improve the overall accuracy of address
                                       information and reduce undeliverable-as-addressed
                                       mail. It also supports the Transformation Plan’s
                                       strategy to seek opportunities to create new services
                                       with minimal investment.

                              The potential drawbacks include:

                                  •    By affiliating with commercial Internet companies, the
                                       Postal Service may increase its exposure to risks.
                                       For example:




                                                   7
                                        Restricted Information
Commercial Internet Companies                                                    OE-MA-03-003
 Offering Change-of-Address Services


                                                 o The additional Internet avenues for consumers
                                                   to submit electronic address changes to the
                                                   Postal Service inherently increase
                                                   opportunities for breaches of security and
                                                   privacy.

                                                 o The links from the commercial websites to
                                                   other move-related websites raise issues
                                                   related to Postal Service privacy policy13 and
                                                   the Privacy Act of 1974. However, the Postal
                                                   Service could mitigate these risks by requiring
                                                   the companies to implement stringent security
                                                   and privacy measures.

                                                 o If customers are defrauded as a result of using
                                                   the move-related services or if the move-
                                                   related companies offer customers less than
                                                   satisfactory service, the Postal Service’s
                                                   reputation as a trusted third party could be
                                                   damaged. The damage could occur because
                                                   customers may think the Postal Service
                                                   endorses the move-related companies.

                                      In addition, to pursue this option, the Postal Service would
                                      have to address restrictions imposed by its Mover’s Source
                                      alliance. Under the terms of the Mover’s Source alliance,
                                      the Postal Service may not be able to enter into agreements
                                      in this area outside of the alliance.

                                      Option 2 - Not Accept Address Changes Submitted Through
                                      Commercial Companies.

                                      The advantages of this option are as follows.

                                          •   If the companies were not involved, the Postal
                                              Service would not have to be concerned with the
                                              potential negative impact on its reputation as a
                                              trusted third party. This impact could result from
                                              fraudulent activity or breaches of customer
                                              information via the commercial company websites,
                                              which consumers could mistakenly associate with the
                                              Postal Service. In fact, one of the companies we
                                              reviewed claimed it was a recognized change-of-
                                              address agent with the Postal Service, although the
13
     Title 39, Code of Federal Regulations.



                                                          8
                                               Restricted Information
Commercial Internet Companies                                                        OE-MA-03-003
 Offering Change-of-Address Services


                                         Postal Service does not endorse third parties as
                                         agents.

                                    •    The Postal Service could reduce its risk of
                                         processing inaccurate customer address information.
                                         One of the companies we reviewed did not verify the
                                         accuracy of the address information consumers
                                         entered. The lack of quality controls in this process
                                         could result in errors, which the Postal Service would
                                         have to correct. Ultimately, this could increase
                                         processing times and operating costs.

                                A potential drawback of selecting this option would be the
                                Postal Service could expose itself to criticisms similar to
                                those addressed in the OIG report on commercial mail
                                receiving agencies.14 Those criticisms included the Postal
                                Service created the appearance that it misused its
                                regulatory authority to hinder competition.

                                Option 3 - Inform the Commercial Companies They are
                                Violating Postal Service Policy.

                                Informing the commercial companies they are violating
                                Postal Service policy was not a viable option because the
                                companies are operating within Postal Service policy.
                                Postal Service policy15 allows third parties, such as a
                                customer’s agent, to submit change-of-address orders on
                                behalf of a customer. There are no limitations or restrictions
                                on what constitutes a customer’s agent.

 Conclusion                     Although ultimately a Postal Service management decision,
                                we believe it would be more prudent for the Postal Service
                                to explore Option 1, leveraging commercial change-of-
                                address services. This option offers numerous potential
                                advantages over Options 2 and 3 to include avoiding costs,
                                increasing revenue, and improving customer service. This
                                option also supports the Postal Service Transformation Plan
                                strategies to improve the overall accuracy of address
                                information and to seek opportunities to create new services
                                with minimal investment. In addition, the option facilitates
                                the Transformation Plan’s strategy to reduce undeliverable-
                                as-addressed mail. Furthermore, by meeting with these
14
   The Review of the Revised Rules Governing Commercial Mail Receiving Agencies (Report Number DE-AR-01-
002, dated April 9, 2001).
15
   Postal Operations Manual, Issue 9, July 2002, Section 682.



                                                     9
                                          Restricted Information
Commercial Internet Companies                                              OE-MA-03-003
 Offering Change-of-Address Services


                              companies, the Postal Service could avoid criticisms that it
                              misused its regulatory authority to hinder competition.
                              However, potential drawbacks to Option 1 include added
                              privacy issues, a potential for increased vulnerability to
                              security threats, and risks to the Postal Service’s reputation.
                              In addition, while the Postal Service’s Mover’s Source
                              alliance is in effect, the terms of the alliance may influence
                              how the Postal Service could pursue this option.

 Management’s                 Management agreed with our conclusion that it would be
 Comments                     prudent for the Postal Service to explore leveraging
                              commercial change-of-address services, within the
                              limitations of the current Strategic Alliance agreement.

                              Management’s comments, in their entirety, are included in
                              the appendix of this report.

 Evaluation of                Management’s comments are responsive to the information
 Management’s                 presented in this report.
 Comments
                              We appreciate the cooperation and courtesies provided by
                              your staff during our review. If you have any questions, or
                              need additional information, please contact Robert J. Batta,
                              director, Accepting and Processing, at (703) 248-2100 or
                              me at (703) 248-2300.



                              Ronald D. Merryman
                              Acting Assistant Inspector General
                               for eBusiness

                              cc: John M. Nolan
                                  Richard J. Strasser, Jr.
                                  Mary Anne Gibbons
                                  Nicholas F. Barranca
                                  Robert L. Otto
                                  Linda S. Stewart
                                  Zoe C. Strickland
                                  Susan M. Duchek




                                                 10
                                       Restricted Information
Commercial Internet Companies                                   OE-MA-03-003
 Offering Change-of-Address Services


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                 11
                                       Restricted Information
